No. 20-440
In the

Supreme Court of the United States
MINERVA SURGICAL, INC.,
Petitioner,
v.
HOLOGIC, INC., et al.,
Respondents.
On Writ of Certiorari to the United States
Court of A ppeals for the Federal Circuit
BRIEF OF AMICUS CURIAE INTELLECTUAL
PROPERTY OWNERS ASSOCIATION
IN SUPPORT OF NEITHER PARTY
Daniel J. Staudt
President
Kevin H. Rhodes
Chair,
Amicus Brief Committee
Samantha Aguayo
Deputy Executive
Director & Chief Policy
Counsel
Intellectual Property
Owners A ssociation
1501 M Street, NW,
Suite 1150
Washington, DC 20005
(202) 507-4500

Robert M. Isackson
Counsel of Record
Melvin Garner
Matthew K aufman
Lauren Sabol
Henry Gabathuler
Hoda Rifai-Bashjawish
Leason Ellis, LLP
One Barker Avenue,
5th Floor
White Plains, NY 10601
(914) 288-0022
isackson@leasonellis.com

Counsel for Amicus Curiae
Intellectual Property Owners Association
March 1, 2021
302220

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . .  iii
INTEREST OF AMICUS CURIAE . . . . . . . . . . . . . . . . 1
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT  . . . . . . . . . . . . . . . . . . . . 3
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
I.

T he Supreme Cou r t Has Endorsed
the Doctrine of Assignor Estoppel in
Patent Cases but Has Provided Limited
Guidance Regarding Its Application.  . . . . . . . . . 5

II. The Federal Circuit Law of Assignor
Estoppel Follows and Fairly Implements
This Court’s Jurisprudence  . . . . . . . . . . . . . . . . . 8
III. A ssig nor Estoppel is a Doctr ine of
Limited Application and Scope. . . . . . . . . . . . . . 11
IV. Assignor Estoppel Should Be Implemented
as a Rebuttable Presumption That Can Be
Overcome on the Equities Considering the
Totality of the Circumstances  . . . . . . . . . . . . . . 12

ii
Table of Contents
Page
V.

P r iv it y a nd It s Equ it able Fa c t u a l
Considerations Are the Backstop That Avoid
the Parade of Horribles Raised by Those
Who Would Abolish Assignor Estoppel  . . . . . . 14
A. Privity where the inventor assignor
is the employee of the infringer . . . . . . . . . 16
B. P r iv ity i n busi ness -t o -busi ness
transactions . . . . . . . . . . . . . . . . . . . . . . . . . . 19

VI. An Equitable Application of Assignor
Estoppel Is Consistent with this Court’s
Abolishment of Licensee Estoppel . . . . . . . . . . . 21
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
APPENDIX  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a

iii
TABLE OF CITED AUTHORITIES
Page
Cases
Acushnet Co. v. Dunlop Maxfli Sports Corp.,
No. CIV. A. 98-717-SLR, 2000 WL 987979
(D. Del. June 29, 2000) . . . . . . . . . . . . . . . . . . . .  11, 18
American Mach. Co. v. Everedy Mach. Co.,
35 F.2d 526, 3 U.S.P.Q. (BNA) 196
(E.D. Pa. 1929) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Checkpoint Sys. v. All-Tag Sec. S.A.,
412 F.3d 1331 (Fed. Cir. 2005) . . . . . . . . . . . . . . . . . . 23
Diamond Sci. Co. v. Ambico, Inc.,
848 F.2d 1220 (Fed. Cir. 1988) . . . . . . . . . . . . . . passim
Hologic, Inc. v Minerva Surgical, Inc.,
957 F.3d 1256 (Fed. Cir. 2020) . . . . . . . . . . . . . . . . . . 10
Intel Corp. v. United States Int’l Trade Comm’n,
946 F.2d 821 (Fed. Cir. 1991) . . . . . . . . . . . . .  17, 20, 23
Juniper Networks, Inc. v.
Palo Alto Networks, Inc.,
15 F. Supp. 3d 499 (D. Del. 2014) . . . . . . . . . . . . . . . 10
Leading Technology Composites, Inc. v.
MV2, LLC,
2020 WL 790601 (D. Md. 2020) . . . . . . . . . . . . . . . .  17

iv
Cited Authorities
Page
Lear, Inc. v Adkins,
395 U.S. 653 (1969) . . . . . . . . . . . . . . . . . . . . . . . passim
MAG Aerospace Industries, Inc. v.
B/E Aerospace, Inc.,
816 F.3d 1374 (Fed. Cir. 2016)  . . . . . . . . . . . . . . .  14, 15
Mellor v. Carroll,
141 F. 992 (C.C.D. Mass. 1905)  . . . . . . . . . . . . . .  17, 19
Mentor Graphics Corp. v. EVE–USA, Inc.,
851 F.3d 1275 (Fed. Cir. 2017) . . . . . . . . . . . . . . passim
Midland Realty Co. of Minn. v. Halverson,
52 P.2d 159 (Mont. 1935) . . . . . . . . . . . . . . . . . . . . . . . 13
Mikkelsen Graphic Eng’g Inc. v. Zund Am. Inc.,
No. 07-C-0391, 2014 WL 12654766
(E.D. Wis. May 23, 2014)  . . . . . . . . . . . . . . . . . . . . . . 19
Navico Inc. v. Garmin International, Inc.,
2017 WL 3426052 (E.D. Tex. 2017), report and
recommendation adopted, 2017 WL 3394600
(E.D. Tex. 2017) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
Pandrol USA, LP v. Airboss Ry. Prod., Inc.,
424 F.3d 1161 (Fed. Cir. 2005) . . . . . . . . . . . . . . . . . . . 9
Scott Paper Co. v. Marcalus Mfg. Co.,
326 U.S. 249 (1945) . . . . . . . . . . . . . . . . . . . . . . . passim

v
Cited Authorities
Page
Shamrock Techs. Inc. v. Med. Sterilization, Inc.,
903 F.2d 789 (Fed. Cir. 1990) . . . . . . . . . . . . . . . passim
SiRF Tech v. ITC,
601 F.3d 1319 (Fed. Cir. 2010)  . . . . . . . . . . . . . . . . . . 14
Thompson v. Gue,
259 A.2d 272 (Md. Ct. App. 1969) . . . . . . . . . . . . . . . 12
Westinghouse Electric & Mfg. Co. v.
Formica Insulation Co.,
266 U.S. 342 (1924) . . . . . . . . . . . . . . . . . . . . . . . passim
Statutes
35 U.S.C. § 282 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 14
Other Authorities
U.S. Const. art. I, Sec. 8 . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 Am. Jur. 2d, II., Estoppel by Deed or Bond, § 4 . . . 13
Cooper, Estoppel to Challenge Patent Validity:
The Case of Private Good Faith vs. Public
Policy, 18 Case W. Res. 1122 (1967) . . . . . . . . . . . . . 13

1
INTEREST OF AMICUS CURIAE
Amicus cur iae Intellectual Property Ow ners
Association (IPO) is an international trade association
representing a “big tent” of diverse companies, law
firms, service providers, and individuals in all industries
and fields of technology that own, or are interested in,
intellectual property (IP) rights.1 Founded in 1972, IPO’s
mission is to promote high quality and enforceable IP
rights and predictable legal systems for all industries
and technologies. IPO advocates effective, affordable, and
balanced IP rights before both Congress and the United
States Patent and Trademark Office (USPTO) and has
filed amicus curiae briefs in this Court and other courts
on significant issues of intellectual property law. The
members of IPO’s Board of Directors, which approved the
filing of this brief, are listed in the attached Appendix. 2
INTRODUCTION
IPO’s members collectively invest tens of billions of
dollars annually on research and development, employing
hundreds of thousands of scientists, engineers, and others
in the United States to develop, produce, and market
innovative new products, processes, and services. Many
1. No counsel for a party authored this brief in whole or in
part, and no such counsel or party made a monetary contribution
intended to fund the preparation or submission of this brief.
No person other than the amicus curiae or its counsel made a
monetary contribution to its preparation or submission. Both
parties have consented to the filing of this brief.
2. IPO procedures require approval of positions in briefs by
a two-thirds majority of directors present and voting.

2
of these innovations take years of research, failure,
missteps, and refinements to reach eureka moments,
plus additional time to develop practical applications and
potentially commercialize them. Many of the innovations
are patented, often identifying teams of individuals
working in collaboration as inventors. Employee-inventors
regularly assign their inventions to their employers for
valuable consideration, typically as part of their job
function and compensation. In many cases, individuals
who are hired to invent have signed agreements assigning
to their employer their inventions and any patent rights
upon creation of the invention, which grants are confirmed
by assignment documents recorded in the USPTO at the
time applications for patent are filed or thereafter.
Many research and development activities produce
pat ent ed inventions that in some instances a re
commercialized into valuable and profitable businesses,
and in others are not commercialized at all. In either case,
the disclosure of the invention in the patent publication may
inform and inspire competitors or would-be competitors
to improve upon or make their own innovations, possibly
leapfrogging prior innovations with new ones that may
be patented. Thus, the “progress of science and useful
arts” is promoted, as intended by the Constitution. U.S.
Const, A rt. I, Sec. 8.
In addition, the patented technology and/or associated
patents may be licensed or sold to another who has the
motivation and resources to turn the innovation into a
commercial product, continue exploitation of an existing
commercial product, and/or to recoup the investment made
in the innovation through licensing of the patent(s). The
sale of patents, with or without an associated business,
has long been and continues to be a business unto itself.

3
Another practical reality is that employee mobility
has dramatically increased since the doctrine of assignor
estoppel was first recognized. Employees often change
jobs during their career; some move from a company to
its competitor, where their technical expertise and prior
innovations are highly valued (and compensated). Others
may start their own companies, building on their prior
work experience and training obtained in part at the
expense of a previous employer. It is not unusual that after
having assigned invention rights in a patent application,
an inventor-employee moves on to other employment well
before any patent issues on that application.
This case presents a question of substantial practical
importance to IPO members: namely, whether the
doctrine of assignor estoppel remains viable such that
inventors whose innovative activities lead to patent rights
assigned to their employer may, when the assignor’s
employment circumstances change, later challenge the
validity of their previously assigned patents to compete
with a former employer, and whether those in privity with
an assignor should likewise be estopped from challenging
the assigned patent
SUMMARY OF ARGUMENT
This Court has acknowledged the propriety and
viability of the doctrine of assignor estoppel as applied
to inventors and those in privity with them each time the
issue has been before it. In 1945, this Court recognized
that the “principle whereby an assignor is held to his
bargain with the assignee has been part of the texture
of our patent law throughout its history.” Scott Paper
Co. v. Marcalus Mfg. Co., 326 U.S. 249, 263 (1945). The
Federal Circuit has consistently applied this Court’s

4
precedent in holding that assignor estoppel is an equitable
doctrine based on sound contract and patent law policy
considerations: To prevent the unfairness and injustice of
permitting a party to sell patent rights for value and later
to assert that the invention that was sold is worthless.
Amicus curiae IPO submits that the passage of time
has established that the contract and patent law policy
considerations on which assignor estoppel is based remain
sound. Thus, “there are still circumstances in which
the equities of the contractual relationship between the
parties should deprive one party (as well as others in
privity with it) of the right to … challenge [the validity
of the patent previously assigned].” Diamond Scientific.
Co. v. Ambico, Inc., 848 F.2d 1220, 1225 (Fed. Cir. 1988).
This Court’s jurisprudence sprang from facts
remarkably similar to the present case, confirming that
the modern innovation economy and increased employee
mobility warrant maintenance, and not abrogation, of
the doctrine. Assignor estoppel maintains its role in
promoting the free and secure transfer of patent rights to
those seeking to develop and commercialize them. Thus,
assignor estoppel is rooted in the traditional considerations
of equity based on the totality of circumstances and should
be applied as a rebuttable presumption.
Some argue the doctrine cannot stand in view of the
general policy that the public should be free to challenge
invalid patents. Amicus curiae IPO urges that fairness
and justice, when equity so provides, require holding an
assignor who has received the benefits to bear the burdens
of the assignment contract, taking the assignor and its
privities out of the general public. Further, the limited

5
scope and applicability of assignor estoppel to assignors
and their privities, and to invalidity defenses only, mitigate
policy concerns. That increased employee mobility may
increase the occurrence of assignor estoppel changes
neither the calculus nor the sound policies underlying
the doctrine.
IPO takes no position on the actual question presented
in this case, i.e., whether the doctrine of assignor estoppel
should apply to bar the Appellant from seeking to
invalidate the patent-in-suit.
ARGUMENT
I.

The Supreme Court Has Endorsed the Doctrine of
Assignor Estoppel in Patent Cases but Has Provided
Limited Guidance Regarding Its Application.

This Court has previously acknowledged the viability
of the doctrine of assignor estoppel on three occasions. In
a case of first impression, the Court surveyed the lower
courts’ decisions and concluded that:
[t]he rule supported by them is that an assignor
of a patent right is estopped to attack the utility,
novelty or validity of a patented invention which
he has assigned or granted as against any one
claiming the right under his assignment or
grant. As to the rest of the world, the patent
may have no efficacy and create no right of
monopoly; but the assignor cannot be heard
to question the right of his assignee to exclude
him from its use.

6
Westinghouse Electric & Mfg. Co. v. Formica Insulation
Co., 266 U.S. 342, 349 (1924). Adopting “[t]he analogy
between estoppel in conveyances of land and estoppel in
assignments of a patent right,” this Court turned to the
measure of the right to exclude to assess the scope of the
estoppel, and to allow consideration of the state of the art,
not “to destroy the patent and defeat the grant, because
the assignor is estopped to do this [but] to construe and
narrow the claims of the patent, conceding their validity.”
Westinghouse, 266 U.S. at 350-51; id. at 348-49 (“there
seems to be no reason why the principles of estoppel by
deed should not apply to assignment of a patent right in
accordance with the [patent] statute. . . . It was manifestly
intended by Congress to surround the conveyance of
patent property with safeguards resembling those usually
attaching to that of land.”)3
In considering the reach of the estoppel, the
Westinghouse Court recognized and distinguished
situations where the involved assignment was generally of
the specification and claims from those where the assignor
made “specific representations as to the scope of the claims
and their construction, inconsistent with the state of the
art, on the faith of which the assignee purchased . . . .”
Id., 266 U.S. at 351. The latter was acknowledged to be
an equitable consideration akin to a special instance of
3. IPO does not read the doctrine of assignor estoppel as a
judicially created exception to the available “invalidity” defenses
to a patent infringement charge. 35 U.S.C. § 282. Rather, as
made clear in Westinghouse, assignor estoppel arises from and
is an equitable consequence of the contractual assignment of
the assignor’s inchoate patent rights for value, and thus exists
independent of and supersedes any statutory right to a defense
of invalidity that may be available to the rest of the world not
burdened by such contractual obligation.

7
an estoppel by conduct. Id. As for the former, the Court
recognized that:
[w]hen the assignment is made before patent,
the claims are subject to change by curtailment
or enlargement by the Patent Office with the
acquiescence or at the instance of the assignee
and the extent of the claims to be allowed may
ultimately include more than the assignor
intended to claim. This difference might
justify the view that the range of relevant and
competent evidence in fixing the limits of the
subsequent estoppel should be more liberal
than in the case of an assignment of a granted
patent.”
Id., 266 U.S. at 353.
This Court thus established that the circumstances
surrounding the assignment, including the intent and
representations of the assignor, as well as the state
of the art, have a direct bearing on fixing the limit of
any applicable estoppel. It further established that,
notwithstanding the estoppel barring the assignor from
using the applicable state of the art to “destroy the
patent,” the assignor could make use of the state of the
art to construe and thereby limit the scope of the asserted
patent claims. Westinghouse, 266 U.S. at 350-51.
Twenty-two years later this Court reaffirmed assignor
estoppel and “[i]ts basic principle … of good faith, that
one who has sold his invention may not, to the detriment
of the purchaser, deny the existence of that which he has
sold.” Scott Paper, 326 U.S. at 251 (citing Westinghouse
E. & Mfg. Co. v. Formica Insulation Co., 288 F. 330, 333

8
(6th Cir. 1923)). On the particular facts of that case, the
Scott Paper Court determined that:
the patent laws preclude the petitioner assignee
from invoking the doctrine of estoppel, as a
means of continuing as against respondent, his
assignor, the benefit of an expired monopoly,
and they preclude the assignor from estopping
himself from enjoying rights which it is the
policy of the patent laws to free from all
restrictions. For no more than private contract
can estoppel be the means of successfully
avoiding the requirements of legislation enacted
for the protection of a public interest. … The
assignor has a complete defense to an action
for infringement where the alleged infringing
device is that of an expired patent.
Scott Paper Co., 326 U.S. at 257-58. Thus, the Court
barred the assignor from destroying the patent previously
assigned.
Finally, and most recently, the Court in Lear, Inc. v
Adkins, 395 U.S. 653, 666-65(1969) acknowledged and
distinguished the doctrines of assignor and licensee
estoppel, holding only that the latter does not bar a
licensee from challenging the validity of the patent rights
being licensed.
II. The Federal Circuit Law of Assignor Estoppel
Follows and Fairly Implements This Court’s
Jurisprudence
The Federal Circuit, in its first decision involving
the doctrine of assignor estoppel, surveyed this Court’s

9
jurisprudence in concluding that assignor estoppel is an
equitable doctrine that prevents one who has assigned rights
to a patent (or patent application) from later contending
that what was assigned is a nullity. Diamond Scientific,
848 F.2d at 1224 (recognizing “the implicit representation
by the assignor that the patent rights that he is assigning
(presumably for value) are not worthless . . . . To allow the
assignor to make that representation at the time of the
assignment (to his advantage) and later to repudiate it
(again to his advantage) could work an injustice against
the assignee.”).
The Federal Circuit applied this Court’s equitable
rationale, that assignor estoppel be applied “to prevent
unfairness and injustice.” Id. “[A]n assignor should not
be permitted to sell something and later assert that what
was sold is worthless, all to the detriment of the assignee.”
Id.; accord Pandrol USA, LP v. Airboss Ry. Prod., Inc.,
424 F.3d 1161, 1167 (Fed. Cir. 2005) (“[A]ssignor estoppel
prevents an assignor from asserting that its own patent,
for which it may have received value upon assignment, is
invalid and worthless.”).
In 2017, the Federal Circuit reaffirmed the “continued
vitality of the doctrine of assignor estoppel.” Mentor
Graphics Corp. v. EVE–USA, Inc., 851 F.3d 1275, 1283
(Fed. Cir. 2017) (citations omitted). And it did so again in
the panel decision below, recognizing that:
nothing in Lear eliminated assignor estoppel
and that an important distinction existed
between assignors and licensees:
The public policy favoring allowing a
licensee to contest the validity of the

10
patent is not present in the assignment
situation. Unlike the licensee, who,
w ithout Lear might be forced to
continue to pay for a potentially
invalid patent, the assignor who would
challenge the patent has already been
fully paid for the patent rights.
[Diamond Scientific, 848 F.2d] at 1224.
Hologic, Inc. v Minerva Surgical, Inc., 957 F.3d 1256,
1265 (Fed. Cir. 2020)(“Panel Decision.”).
As this Court did, the Federal Circuit applied the
doctrine to bar invalidity challenges only by the assignor
herself and those “in privity” with the assignor, such
as a corporation founded by the assignor. See Diamond
Scientific, 848 F.2d at 1224. As discussed in further detail
below, “[p]rivity, like the doctrine of assignor estoppel
itself, is determined upon a balance of equities.” Shamrock
Techs. Inc. v. Med. Sterilization, Inc., 903 F.2d 789, 793
(Fed. Cir. 1990). “In other words, ‘[i]f an inventor assigns
his invention to his employer company A and leaves to
join company B, whether company B is in privity and thus
bound by the doctrine will depend on the equities dictated
by the relationship between the inventor and company B
in light of the act of infringement.’” Juniper Networks,
Inc. v. Palo Alto Networks, Inc., 15 F. Supp. 3d 499, 507508 (D. Del. 2014) (quoting Shamrock Techs., 903 F.2d at
793). “The closer that relationship, the more the equities
will favor applying the doctrine to company B.” Id. at 508.
This jurisprudence makes clear that assignor estoppel
does not prevent companies from competing for talented
employees. Instead, the doctrine, as applied in limited

11
circumstances, furthers equity by preventing the assignor
(whether acting individually or through another entity)
from “making [a] representation [of the patent’s validity]
at the time of assignment (to his advantage) and later . .
. repudiat[ing] it (again to his advantage).” Acushnet Co.
v. Dunlop Maxfli Sports Corp., No. CIV. A. 98-717-SLR,
2000 WL 987979, at *3 (D. Del. June 29, 2000) (quoting
Diamond Scientific, 848 F.2d at 1224) (brackets in
original).
III. Assignor Estoppel is a Doctrine of Limited
Application and Scope.
Assignor estoppel does not cut a broad swath through
patent law. Rather, it is quite limited both in application
and scope. It applies only in the rare situation that the
accused infringer is the assignor of the asserted patent,
or in privity with the assignor. Its scope is limited to
preventing assertion of an invalidity defense in district
court when equity prevents an assignor from unfairly
repudiating its representations of assigning valuable
patent rights for consideration upon assignment. Diamond
Scientific, 848 F.2d at 1224.
Importantly, assignor estoppel does not divest an
accused assignor (or those in privity) of its complement
of defenses to an infringement charge, other than those
invalidity defenses it is equitably estopped to assert. Even
when a certain prior art invalidity defense is precluded,
that same prior art may be introduced to address, and
indeed narrow, the scope of claims, in defense to an
infringement claim. Westinghouse, 266 U.S. at 350-51;
Mentor, 150 F.3d at 1379. Likewise, an assignor is free to
argue that its allegedly infringing product falls entirely
within the prior art as a defense to infringement. Scott

12
Paper Co., 326 U.S. at 257-58; Mentor Graphics Corp.
150 F.3d at 1380.
Despite its rare and limited application, assignor
estoppel remains an important doctrine that encourages
fair dealing and the fair transfer of patent rights.
IV. Assignor Estoppel Should Be Implemented as a
Rebuttable Presumption That Can Be Overcome
on the Equities Considering the Totality of the
Circumstances
This Court has recognized that assignor estoppel
is based on “ the principles of estoppel by deed.”
Westinghouse, 266 U.S. at 348. While “[e]stoppel by deed is
a form of legal, not equitable, estoppel,” the doctrine is still
measured by fairness and justice. Diamond Scientific, 848
F.2d at 1225 (emphasis in original); see also Thompson v.
Gue, 259 A.2d 272, 275-76 (Md. Ct. App. 1969) (“Generally,
estoppel by deed is based upon equitable considerations . . .
the true principle of estoppel, as applicable to deeds, is to
prevent circuity of action and to compel parties to fulfil
their contracts.”) (quoting 28 Am. Jur. 2d, II., Estoppel by
Deed or Bond, § 4 at p. 603). Assignor estoppel, therefore,
should be implemented as a rebuttable presumption in
accordance with traditional principles of equity in light
of the totality of the circumstances.
The supporting rationale for the doctrine of assignor
estoppel show it is designed to further equitable
considerations. “The four most frequently mentioned
justifications for applying assignor estoppel are the
following: ‘(1) to prevent unfairness and injustice; (2) to
prevent one [from] benefiting from his own wrong; (3)
by analogy to estoppel by deed in real estate; and (4) by

13
analogy to a landlord-tenant relationship.’” Diamond
Scientific, 848 F.2d at 1224 (citing Cooper, Estoppel to
Challenge Patent Validity: The Case of Private Good
Faith vs. Public Policy, 18 Case W. Res. 1122 (1967));
see also Midland Realty Co. of Minn. v. Halverson, 52
P.2d 159, 161 (Mont. 1935) (“The doctrine of estoppel was
invented and engrafted upon the law to prevent wrongs
and not to promote them.”).
Applying a rebuttable presumption of assignor
estoppel thus reflects a practical deployment of equity
and is in line with the guidance provided in Westinghouse
and Diamond and, perhaps more importantly, fairness to
the assignee.
In Westinghouse, this Court acknowledged prior
decisions finding that “an assignor of a patent right
is estopped to attack the utility, novelty or validity
of a patented invention which he has assigned” and
declined to “disturb a rule well settled by 45 years of
judicial consideration and conclusion in those courts.”
Westinghouse, 266 U.S. at 349. This point is made even
more explicitly in Diamond and cited by the Panel below,
concluding that:
an assignor should not be permitted to sell
something and later to assert that what was
sold is worthless, all to the detriment of the
assignee. . . . In other words, it is the implicit
representation by the assignor that the patent
rights that he is assigning ( presumably for
value) are not worthless that sets the assignor
apart from the rest of the world and can deprive
him of the ability to challenge later the validity
of the patent.

14
Diamond, 848 F.2d at 1224 (emphasis added); see also
Panel Decision, 957 F.3d at 1265.
Making a presumption of assignor estoppel rebuttable
also is consistent with and analogous to other validityrelated presumptions found in patent law. See, e.g., 35
U.S.C. § 282(a) (stating issued patents “shall be presumed
valid”); and SiRF Tech v. ITC, 601 F.3d 1319, 1327-28
(Fed. Cir. 2010) (noting recordation of a patent assignment
creates a rebuttable presumption of validity of the
assignment against the challenger).
V. Privity and Its Equitable Factual Considerations
Are the Backstop That Avoid the Parade of
Horribles Raised by Those Who Would Abolish
Assignor Estoppel
Assignor estoppel applies to the assignor and all those
in privity with the assignor at the time that the validity
challenge is sought to be asserted. See MAG Aerospace
Industries, Inc. v. B/E Aerospace, Inc., 816 F.3d 1374,
1379-81 (Fed. Cir. 2016). Today, the transfer of patent
rights is commonplace, particularly from an employee
inventor to an employer, as well as from one assignee to
another. However, not every assignment results in an
accused assignor being estopped from raising invalidity
challenges. Thus, like the doctrine of assignor estoppel
itself, whether an assignee is in privity with its assignor
should be determined based on equitable considerations
in the interest of fairness with a complete evaluation of
all contacts in light of the infringement. Mentor, 150 F.3d
at 1379.
Hence, the threshold question of privity sets limits
on whether assignor estoppel applies to parties (other

15
than the inventor herself).4 Shamrock Techs., 903 F.2d
at 793. “What constitutes ‘privity’ varies, depending
on the purpose for which privity is asserted.” Id. at 793
(quoting American Mach. Co. v. Everedy Mach. Co., 35
F.2d 526, 528, 3 U.S.P.Q. (BNA) 196, 198 (E.D. Pa. 1929)
(distinguishing use of privity for estoppel from use of
privity for imposition of personal liability)). As applied to
assignor estoppel, “[w]hether two parties are in privity
depends on the nature of their relationship in light of the
alleged infringement.” Mentor, 150 F.3d at 1379.
For example, the paradigm case of privity involves the
assignor forming his or her own company, or moving into
a leadership position of another company, and directing
or causing that company’s alleged infringement. But if
an inventor moves to a large existing company, and is an
employee with no or limited involvement in the allegedly
infringing activities, assignor estoppel may not be
triggered for lack of privity.
This Court’s decisions on assignor estoppel have
not expounded on the full scope of privity. Rather, they
are limited to situations in which the inventor assigned
her rights to an employer and subsequently organized
or operated a company later accused of infringing the
assigned patent and seeking to challenge its validity. See,
e.g., Westinghouse, 266 U.S. at 354 (noting estoppel may
apply where inventor assigns invention and subsequently
becomes a partner in accused infringer); Scott Paper, 326
U.S. at 251-52 (finding estoppel applied where inventor
4. When applying assignor estoppel, courts often use the
terms “assignor” and “inventor” interchangeably, but these are
not always interchangeable. See, e.g., MAG Aerospace Indus., 816
F.3d at 1380.

16
assigned patent and then formed and controlled accused
infringer).
The Federal Circuit has considered privity beyond
those circumstances, aptly concluding that “[p]rivity, like
the doctrine of assignor estoppel itself, is determined upon
a balance of the equities.” MAG Aerospace, 816 F.3d at
1380 (quoting Shamrock, 903 F.2d at 793). While there
is no and should not be any bright-line test for whether
a defendant company is in privity with the assignor, the
Federal Circuit has identified the following non-exclusive
factors as relevant: (1) the assignor’s leadership role at the
new employer; (2) the assignor’s ownership stake in the
defendant company; (3) whether the defendant company
changed course from manufacturing non-infringing goods
to infringing activity after the inventor was hired; (4) the
assignor’s role in the infringing activities; (5) whether
the inventor was hired to start the infringing operations;
(6) whether the decision to manufacture the infringing
product was made partly by the inventor; (7) whether the
defendant company began manufacturing the accused
product shortly after hiring the assignor; and (8) whether
the inventor was in charge of the infringing operation.
Shamrock, 903 F.2d at 793-794.
A.

Privity where the inventor assignor is the
employee of the infringer

In the prototypical case of an inventor assignor
who then leaves assignee company A to join company
B, “whether company B is in privity and thus bound by
the doctrine will depend on the equities dictated by the
relationship between the inventor and company B in light
of the act of infringement. The closer that relationship,
the more the equities will favor applying the doctrine

17
to company B.” Shamrock, 903 F.2d at 793. Put another
way, privity depends on the closeness of the relationship
between the assignor and accused infringer and the
assignor’s relationship to the infringement.
It is generally settled that, if an assignor forms a
corporation or other business entity wholly owned by her
and causes that entity to infringe the assigned patent,
the corporation is the assignor’s privy. See Shamrock, 903
F.2d at 794 (finding privity when assignor was shareholder
of new company and was heavily involved in decision to
begin infringing operations). In contrast, if the assignor
is a “mere employee” of the infringing company, the
company will not be in privity with the assignor. Id. Cases
that fall in between these two extremes may be decided
by determining the closeness of the relationship among
the relevant parties through examination of the totality
of the circumstances.
While not dispositive, the central question of the
closeness of the relationship is commonly expressed
as whether the accused infringer “availed itself of
the inventor’s ‘knowledge and assistance’ to conduct
infringement.” See, e.g., Intel Corp. v. United States Int’l
Trade Comm’n, 946 F.2d 821, 839 (Fed. Cir. 1991) (citing
Shamrock, 903 F.2d at 794 (quoting Mellor v. Carroll,
141 F. 992 (C.C.D. Mass. 1905))). That this inquiry can
lead to apparently inconsistent results is a function of
considering the totality of the circumstances. 5 Indeed,
5. Cf. Navico Inc. v. Garmin International, Inc., 2017 WL
3426052,*5-*6 (E.D. Tex. 2017), report and recommendation
adopted, 2017 WL 3394600, *1 (E.D. Tex. 2017) (finding no privity
with inventors hired as engineers that took direction from others
within the company in developing the accused product); w. Leading
Technology Composites, Inc. v. MV2, LLC, 2020 WL 790601, *4-*5

18
as most employees are hired for their “assistance,” and
highly specialized employees are commonly sought for
their existing “knowledge,” care should be taken not to
interpret “knowledge and assistance” overly broadly to
avoid unwarranted restraints on employee mobility that
do not further the policy underlying assignor estoppel.
Assignor estoppel was not designed to prevent
companies from competing for talented employees; rather,
it was intended to prevent the assignor (whether acting
individually or through another entity) from “making
[a] representation [of the patent’s validity] at the time of
assignment (to his advantage) and later . . . repudiat[ing] it
(again to his advantage).” Acushnet Co. v. Dunlop Maxfli
Sports Corp., No. CIV. A. 98-717-SLR, 2000 WL 987979,
at *3 (D. Del. June 29, 2000) (quoting Diamond Scientific,
848 F.2d at 1224). As such, privity should not attach to
employees who are simply working for the defendants
making the allegedly infringing products and are not
directing actions that lead to the alleged infringement, as
they are not directly repudiating the assigned invention.
Indeed, even an assignor’s assistance on an infringing
product may not necessarily indicate that the alleged
infringer availed itself of the assignor’s knowledge and
assistance to infringe. As one district court commented:
It is difficult to see why a company’s relying
upon the assignor’s knowledge and assistance to
conduct infringement should estop the company
from challenging the patent’s validity, or why
(D. Md. 2020) (finding privity where the inventor helped design or
manufacture components of allegedly infringing product despite
no leadership or ownership role).

19
the company should even have a need to rely
upon the assignor’s knowledge and assistance in
the first place. Because a patent must enable a
person having ordinary skill in the art to make
and use the patented machine or process, see 35
U.S.C. § 112(a), a company can determine how
to infringe without relying on the knowledge
and assistance of the assignor.
Mikkelsen Graphic Eng’g Inc. v. Zund Am. Inc., No.
07-C-0391, 2014 WL 12654766, at *4 (E.D. Wis. May 23,
2014). Rather, an assignee’s contribution to the infringing
product should be sufficiently significant and material
to conclude that the accused infringing company availed
itself of the inventor’s knowledge and assistance to conduct
infringement. See Shamrock, 903 F.2d at 794 (agreeing
with Mellor v. Carroll, 141 F. 992 (C.C.D. Mass. 1905)
(“Mere co-operation in the alleged infringement with the
estopped assignor may not … be enough to create the
estoppel.”)).
B. Privity in business-to-business transactions
The common fact pattern of an inventor assignor
who is a former employee is not the only situation where
assignor estoppel arises. While the factual circumstances
and equitable interests differ when the inventor’s
involvement has ceased and there is a string of businessto-business transactions between the original inventor and
accused infringer, considerations of equity and “closeness”
remain paramount in assessing whether privity exists
throughout the chain. There are two principal situations
where business-to-business privity may arise: (1) where
the inventor-assignor’s parent company is being accused

20
of infringement and (2) where the business is itself an
assignor to another business.6
Extrapolating from Shamrock and Intel, the question
of the “closeness of the relationship” and whether the
allegedly infringing company availed itself of “knowledge
and assistance” of an assignor to infringe is still instructive
in these cases. See Intel, 946 F.2d at 838-39. As is the
case with inventor assignors, here too considerations of
the assignor company’s knowledge and decision-making
authority over the allegedly infringing acts should be
taken into consideration. Mentor, 150 F.3d at 1377-79
(finding privity where subsidiary was established for the
purpose of manufacturing allegedly infringing goods
and the parent exercised “considerable control” over
the operations of the subsidiary). The most significant
concept is “whether the ultimate infringer availed itself
of the inventor’s ‘knowledge and assistance’ to conduct
infringement.” Intel, 946 F.2d at 839 (quoting Shamrock,
903 F.2d at 794).
Ultimately, as in the more typical employee-inventor
scenarios, whether privity tacks through successive
business to business transactions requires a balancing of
the equities considering the totality of the circumstances,
originating with the inventor assignor.

6. Most decisions relating to privity of the parent company
trace the closeness from the inventor-assignor. The second
scenario, involving a corporate assignor with no relation to the
inventor, is seldom observed in assignor estoppel, likely because
assignments from competitors that wish to continue competing is
rare and may be accompanied by express contractual rights that
seek to avoid such scenarios.

21
VI. An Equitable Application of Assignor Estoppel
Is Consistent with this Court’s Abolishment of
Licensee Estoppel
Our public policy generally encourages challenging
potentially invalid patents. In 1945, this Court recognized
that the “principle whereby an assignor is held to his
bargain with the assignee has been part of the texture of
our patent law throughout its history.” Scott Paper, 326
U.S. at 263 (1945). In Lear, this Court reconsidered the
doctrine of licensee estoppel “in the light of our recent
decisions emphasizing the strong federal policy favoring
free competition in ideas which do not merit patent
protection.” Lear, 395 U.S. at 656 (citations omitted). The
Court then recognized that “the Sherman Act made it
clear that the grant of monopoly power to a patent owner
constituted a limited exception to the general federal
policy favoring free competition.” Id. at 663. Further, the
Court noted that:
The uncertain status of licensee estoppel in
the case law is a product of judicial efforts
to accommodate the competing demands of
the common law of contracts and the federal
law of patents. On the one hand, the law of
contracts forbids a purchaser to repudiate
his promises simply because he later becomes
dissatisfied with the bargain he has made. On
the other hand, federal law requires, that all
ideas in general circulation be dedicated to the
common good unless they are protected by a
valid patent.
Id. at 668 (citations omitted). Yet, considering these
overarching public policies, the Lear Court clearly

22
distinguished licensee estoppel from assignor estoppel,
rescinding the former and not disturbing the latter. Id.
It explained that “the patentee’s equities were far more
compelling” in the case of assignor estoppel. Id. at 664
(emphasis added).
Consistent with Lear, the Panel below endorsed
the Diamond Scientific court’s analysis of the “‘public
policy encouraging people to challenge potentially invalid
patents’ and ‘disfavoring the repression of competition by
the enforcement of worthless patents,’” and simultaneous
recognition “that assignor estoppel serves important
purposes.” Panel Decision, 957 F.3d at 1265 (citing
Diamond Scientific, 848 F.2d at 1224–25). Specifically,
the Panel
emphasized the longstanding reasoning
behind the doctrine that “an assignor should
not be permitted to sell something and later
to assert that what was sold is worthless, all
to the detriment of the assignee.” Id. Stated
another way, “it is the implicit representation
by the assignor that the patent rights that he
is assigning (presumably for value) are not
worthless that sets the assignor apart from
the rest of the world and can deprive him of
the ability to challenge later the validity of the
patent.” Id. Thus, it “could work an injustice
against the assignee” to “allow the assignor
to make that representation at the time of the
assignment (to his advantage) and later to
repudiate it (again to his advantage).” Id.
Id. In short, “there are still circumstances in which
the equities of the contractual relationships between

23
the parties should deprive one party (as well as others
in privity with it) of the right to bring that challenge.”
Diamond Scientific, 848 F.2d at 1225.
The case law thus clearly distinguishes the estoppel
equities applicable to a patent licensee, who faces the
prospect of having to pay royalties after learning of an
infirmity challenge to the patent whose protection it had
sought, and the estoppel equities applicable to an assignor,
who has received fair consideration for his or her grant
before any infirmity challenge to the patent is lodged.
As noted above, the doctrine of assignor estoppel
is cabined in scope and application, supra at Section
III. That increased employee mobility may increase the
occurrence of assignor estoppel situations changes neither
the calculus nor the sound policies underlying the doctrine.
In this regard, Congress “in its successive enactments
modifying the patent law has respected this principle and
left it untouched.” Scott Paper, 326 U.S. at 263.
More generally, assignor estoppel has its same
continued role in our modern intellectual property
economy, namely it “prevents the unfairness and injustice
of permitting a party to sell something and later to assert
that what was sold is worthless.” Checkpoint Sys. v. AllTag Sec. S.A., 412 F.3d 1331, 1337 (Fed. Cir. 2005) (quoting
Intel Corp. v. United States Int’l Trade Comm’n, 946 F.2d
821, 839 (Fed. Cir. 1991)). As the Federal Circuit noted:
A rule setting aside [assignor] estoppel after
a corporate transaction would chart a clear
course for assignors to profit from a scheme
of slovenly prosecution, marketing of flawed
patents, and infringement.

24
Mentor, 150 F.3d at 1379. Put another way, the doctrine
still encourages the transfer of patents by imparting an
implicit warranty of merchantability to the patent right.
In this way, the doctrine of assignor estoppel encourages
the secure transfer of patent rights and their development
and commercialization by purchasers who can rely on the
purchased rights not being disavowed by a seller who
wishes to practice the same rights it previously sold.
CONCLUSION
The Court should confirm the continued viability of the
doctrine of assignor estoppel as a rebuttable presumption
in accordance with the traditional principles of equity in
light of the totality of the circumstances.
Respectfully submitted,
Daniel J. Staudt
Robert M. Isackson
President
Counsel of Record
Kevin H. Rhodes
Melvin Garner
Chair,
Matthew K aufman
Lauren Sabol
Amicus Brief Committee
Samantha Aguayo
Henry Gabathuler
Deputy Executive
Hoda Rifai-Bashjawish
Leason Ellis, LLP
Director & Chief Policy
One Barker Avenue,
Counsel
Intellectual Property
5th Floor
Owners A ssociation
White Plains, NY 10601
1501 M Street, NW,
(914) 288-0022
Suite 1150
isackson@leasonellis.com
Washington, DC 20005
(202) 507-4500
Counsel for Amicus Curiae
Intellectual Property Owners Association

APPENDIX

1a
Appendix OF THE BOARD
APPENDIX — MEMBERS
OF DIRECTORS INTELLECTUAL PROPERTY
OWNERS ASSOCIATION
Eric Aaronson
Pfizer Inc.

Karen Cochran
Shell Oil Company

Brett Alten
Hewlett Packard
Enterprise

Johanna Corbin
AbbVie

Ronald Antush
Nokia of Americas Corp.
Estelle Bakun
Exxon Mobil Corp.
Scott Barker
Micron Technology, Inc.
Thomas R. Beall
Corning Incorporated
Brian Bolam
Procter & Gamble Co.

Buckmaster de Wolf
General Electric Co.
Robert DeBerardine
Johnson & Johnson
Anthony DiBartolomeo
SAP SE
Bradley Ditty
InterDigital Holding, Inc.
Daniel Enebo
Cargill, Inc.

Steve Caltrider
Eli Lilly and Co.

Yen Florczak
3M Innovative Properties
Co.

John J. Cheek
Tenneco Inc.

Louis Foreman
Enventys

Cara Coburn
Roche Inc.

Scott M. Frank
AT&T

2a
Appendix
Darryl P. Frickey
Dow Chemical Co.

William Krovatin
Merck & Co., Inc.

Isabella Fu
Microsoft Corp.

Michael C. Lee
Google Inc.

Gary C. Ganzi
Evoqua Water
Technologies, LLC

Elizabeth Lester
Equifax Inc.

Tanuja Garde
Raytheon Co.
Krish Gupta
Dell Technologies
Henry Hadad
Bristol-Myers Squibb
Co.
Lori Heinrichs
Boston Scientific
Heath Hoglund
Dolby Laboratories
Thomas R. Kingsbury
Bridgestone Americas,
Inc.
Laurie Kowalsky
Koninklijke Philips N.V.

William Miller
General Mills, Inc.
Kelsey L. Milman
Caterpillar Inc.
Jeffrey Myers
Apple Inc.
Ross Oehler
Johnson Matthey Inc.
KaRan Reed
BP America, Inc.
Cindy Rosser
DocuSign, Inc.
Paik Saber
Medtronic, Inc.
Matthew Sarboraria
Oracle USA Inc.

3a
Appendix
Manny Schecter
IBM Corp.
Jessica Sinnott
DuPont
Thomas Smith
GlaxoSmithKline
Daniel Staudt
Siemens Corp.
John Stewart
Intellectual Ventures
Management Corp.
Gillian Thackray
Thermo Fisher Scientific
Inc.
Joerg Thomaier
Bayer Intellectual
Property GmbH
Mark Wadrzyk
Qualcomm Inc.
Stuart L. Watt
Amgen, Inc.

